CERTIFICATE OF SERVICE
I hereby certify that on this 17th day of June, 2020, I electronically filed the
foregoing with the Clerk of the Court for the United States Supreme Court. I further certify that on this day, I sent to this Court one copy (pursuant to Guidance
Concerning Clerk’s Office Operations, Apr. 17, 2020) of the foregoing via Personal
Hand Delivery Service. I further certify that, as required by Sup. Ct. R. 29(3), I
served one copy of the foregoing via U.S. Mail and electronic mail upon:

Noel J. Francisco,
Solicitor General
Civil Division, Room 7230
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents
/s/ Catherine E. Stetson
CATHERINE E. STETSON

